No. 19-

IN THE

Oupreme Court of the littiteb Otateo
ROBERT C. STEINER and WENDY STEINER-REED,
Petitioners,
v.
UTAH STATE TAX COMMISSION,
Respondent.

On Petition for a Writ of Certiorari to the
Supreme Court of the State of Utah

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,751 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 12, 2019.

Colin Casey Hog2Cn
Wilson-Epes Printing Co., Inc.

